No. 20-350

In the Supreme Court of the United States
DANIEL FLORES, Petitioner,
v.
CHRISTIAN PFEIFFER, WARDEN, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN
OPPOSITION contains 4,143 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: December 11, 2020
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
VIET H. NGUYEN
Deputy Attorney General
Counsel of Record
Counsel for Respondent
LA2020602999
63814591.docx

